                                 SENSITIVE BUT UNCLASSIFIED 





                                                                                      MAA 16 2011 





MEMORANDUM

TO: 	              OIG - Harold W. Geisel, Deputy Inspector General

FROM: 	            OIG/ISP ­
                   OJ G/OGC ­

SUBJECT: 	         Congressional Request for Review: Department of State Activities Regarding
                   Shipwreck Salvage Claim (ISP-I-11-36)

        In response to a December 21,2010, letter from Representative Kathy Castor (FL-ll)
regarding a constituent's request for an investigation, the Department of State's (Department)
Office of Inspector General (OIG) conducted a review to determine whether there is evidence to
support an allegation made in the St. Petersburg Times, that the Department offered to support
the Government of Spain's claim to coins and other artifacts found by Odyssey Marine
Exploration, Inc. (Odyssey), a U.S. shipwreck salvage company, in exchange for Spain's return
of a high-value painting to a private family, the Cassirer family, in California. I

        The team undertook a review of Department officials' actions regarding two cases which
are currently in litigation: the dispute between Odyssey and the Government of Spain over
recovered shipwreck artifacts, including gold and silver coins, and the dispute between
descendants of an American citizen, Claude Cassirer, and the Government of Spain over a
Camille Pissarro painting confiscated from Cassirer's family by the Nazis. The Government of
Spain claims rightful ownership to both the coins and the Pissarro painting. The purpose of the
review was to determine whether, during discussions with Spain, Department officials proposed
a quid pro quo arrangement connecting the return of the artifacts to Spain with the return of the
painting to the Cassirer family.

Background

        In March 2007, Odyssey discovered the remains ofa shipwreck about 100 miles west of
the Straits of Gibraltar. The remains included approximately 594,000 silver and gold coins,
which Odyssey retrieved and brought to the United States, where it filed a claim for either
ownership of the find or a salvage award for the company's work in retrieving it. The
Government of Spain opposed Odyssey's claim, asserting that the shipwreck was the Spanish
warship Nuestra Senora de las Mercedes, sunk in 1804, and had sovereign immunity. The


1   Penn, Ivan. "Odyssey angry U.S. tried to trade gold for looted painting." St. Petersburg Times, December 10,
    20 I O. Accessed March I, 20 II. hlLp:llwww.tampabay.com/news/humaninteresliodyssey-angry-us-tried-to-trade­
    gold-for- Iooted-paintingl l ) 392')0
                                 SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED 




magistrate judge for the case concluded that the coins did, in fact, come from the wreck of the
Mercedes, and recommended that the coins be returned to Spain.

        Due to its substantial interest in the proper interpretation of marine and international law
applicable to sovereign immunity, the U.S. Government filed a statement of interest in the case
with the U.S. District Court in Tampa, Florida. In its statement, the U.S. Government supported
the Government of Spain's claim that, as a sovereign warship, the Mercedes was immune from
the salvage company's claim, based on the 1902 U.S.-Spain Treaty of Friendship and General
Relations; principles from the United Nations Convention on the High Seas; and customary
international law, as reflected in the United Nations Convention on the Law of the Sea. The
statement explained, in part: "By supporting Spain, the United States seeks to ensure that its own
sunken warships and lost crews are treated as sovereign ships and honored graves and are not
subject to unauthorized exploration or exploitation." The district court ruled in favor of Spain,
and ordered that the coins be returned to Spain. However, Odyssey appealed the decision, and
the coins remain under the court's authority until the case is resolved.

         In a separate and unrelated case, in September 2003 the Department's Office of
Holocaust Issues was asked to help resolve a Holocaust restitution claim regarding a Camille
Pissarro painting, Rue Saint-Honore, Apres-Midi, Effet de Pluie. The late Claude Cassirer, an
American citizen, had asked for restitution of the painting, which the Nazis took from his
grandmother in the 1930s. In 1976, Baron Hans Heinrich Thyssen-Bornemisza of Spain acquired
the painting, and in the early 1990s, the Government of Spain purchased the baron's collection
and built the Thyssen-Bornemisza Museum in Madrid. In considering the Cassirer claim, a U.S.
district court ruled that U.S. courts have jurisdiction to determine who has ownership of the
painting. However, Spain appealed this ruling, and the case is now before the U.S. Court of
Appeals for the 11th Circuit.

        The Office of Holocaust Issues continues to encourage the Government of Spain and
representatives of the Cassirer family to resolve their dispute by engaging in direct talks. During
the 1998 Washington Conference on Holocaust Era Assets, the participating nations (including
Spain) accepted 11 nonbinding principles to assist in resolving issues on Nazi confiscated ati.
One of these principles calls on nations to expeditiously achieve just and fair solutions, and to
develop and use alternative dispute resolution mechanisms for resolving ownership issues. (See:
http://www.state.gov/p/eur/rtlblcst/122038 .htm .) On numerous occasions, both the Office of
Holocaust Issues and the U.S. Ambassador to Spain have urged the Spanish Government and
representatives of the Cassirer family to meet and seek a way forward 2 . The U.S. Government
has met with both parties in an effort to encourage resolution of the issue. However, to date, the
two sides have not met.

Summary of the Office of Inspector General Review

         The OIG review focused on whether there was a link between Department officials'
activities concerning Odyssey's claim and negotiations over the ownership of the Pissarro
painting. The team examined internal Department documents, including email exchanges and

2   State 77179, July 23, 2010; State 79027, July 28, 2010; Madrid 724, July 2, 2008; Madrid 174, February 12,2010;
    Madrid 734, July 14,2010.

                                 SENSITIVE BUT UNCLASSIFIED
                                                         2
                                   SENSITIVE BUT UNCLASSIFIED 




telegraphic communications; held interviews with Department officials who were responsible for
monitoring the Odyssey case; and met with Department officials who were involved with the
Cassirer case from 2007 to the present time. They also interviewed Department employees who
were involved in these matters, including the senior and deputy Spain desk officers, the fonner
economic officer in Madrid, the Special Envoy for Holocaust Issues and his deputy, and an
attorney in the Office of the Legal Adviser who had advised on issues concerning the Odyssey
case. In addition, the OIG team interviewed by telephone the fonner U.S. Ambassador to Spain
and the fonner Spain desk officer, who is currently assigned to Madrid.3

        Officials at Embassy Madrid, the Office of Holocaust Issues, and the Office of Western
Europe (in the Bureau of European and Eurasian Affairs) all told OIG inspectors that efforts to
resolve these two disputes always have been, and remain, unconnected. Likewise, unclassified
cable traffic confirms that, in discussions between the U.S. Ambassador and the Spanish Minister
of Culture, there was agreement that the two cases were on separate tracks.

       Despite press articles to the contrary, inspectors found no evidence that a quid pro quo
arrangement with Spain was ever considered as a way to resolve these two distinct disputes.
Department officials in Washington and embassy officials in Madrid never discussed linking the
Odyssey and Cassirer cases.

        In 2007, shortly after Odyssey filed its admiralty claim in federal district court in Tampa,
an infonnal, interagency working group was formed to discuss the issues raised in the Odyssey
case, and to detennine whether any U.S. Government action would be appropriate-including
any action to protect substantial U.S. Government interests in the proper interpretation of marine
and international law applicable to sovereign immunity. This group monitored the litigation and
evaluated the legal and policy issues associated with the matter. Odyssey ' s representatives and
the Government of Spain also met with the Department on several occasions to discuss their
respective positions.

         Ultimately, on May 5, 2009, the Spanish Embassy presented to the United States a note
verbale 4 requesting assistance in the district court litigation, in accordance with Article X of the
1902 U.S.-Spain Treaty of Friendship and General Relations, and on other shared bases. As
mentioned above, on June 3, 2009, the magistrate judge found that the coins came from the
wreck of the Mercedes and recommended that they be returned to Spain. On July 30, 2009, the
Office of the Legal Adviser requested that the Department of Justice file a Statement of Interest
in the litigation, on behalf of the United States. The Department ofJustice filed the Statement in
district court on September 29, 2009. The district court ruled in favor of Spain, and ordered that
the coins be returned to Spain. 5 However, Odyssey appealed the decision, and the coins remain
under the court' s authority until the case is resolved.




3   The review took place in Washington, DC, between January 18 and 28, 20 II . 

4   A form of diplomatic note, the "note verbale" is an informal third-person note that is less formal than a first­

    person note but more formal than an aide-memoire, per Department regulations (5 FAH-I H-612.2-1).
5   Odyssey Marine Exploration, Inc. v. Unidentified, Shipwrecked Vessel, 675 F. Supp. 2d 1126 (M.D. Fla. 2009).

                                   SENSITIVE BUT UNCLASSIFIED
                                                             3
                           SENSITIVE BUT UNCLASSIFIED 




        In August 2010, the Depaltment of Justice submitted an amicus brief to the U.S. Court of
Appeals for the 11 th Circuit, where the case is now pending; the content of this brief is similar to
the Statement ofInterest which the Depaltment of Justice had filed in the district court.

Conclusion

       After reviewing the relevant files and meeting or conducting telephone conversations
with present and former Department officials involved with the disparate cases, the OIG team
found no evidence of a quid pro quo connection between the Odyssey and Cassirer cases. The
United States did provide assistance to the Government of Spain, in response to a Spanish
request under the terms of a treaty between the two nations. However, there is no relationship
between the two cases, other than that they both involve disputes between U.S. citizens and the
Government of Spain. The team found no evidence that any linkage between the cases was ever
intended, discussed , authorized, or acted upon. Beyond Spain's claim to its ownership of the
disputed valuables in each case, the two lawsuits have nothing in common.




                            SENSITIVE BUT UNCLASSIFIED
                                                 4
